TOP MANAGEMENT CHALLENGES

     Department of Transportation

     Report Number: PT-2011-010

    Date Issued: November 15, 2010
           U.S. Department of
                                                       Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: DOT’s Fiscal Year 2011                            Date:   November 15, 2010
           Top Management Challenges
           Department of Transportation
           Report Number PT-2011-010
  From:    Calvin L. Scovel III                                      Reply to
                                                                     Attn. of:    J-1
           Inspector General
    To:    The Secretary
           Deputy Secretary

           As required by law, we have identified the Department of Transportation’s (DOT) top
           management challenges for fiscal year 2011. The Nation’s economy and the quality
           of life for all Americans rely heavily on a safe and vital transportation system. The
           Department spends approximately $79 billion annually on a wide range of programs
           and initiatives to meet this objective, and we continue to support its efforts through
           our audits and investigations.

           Improving safety across all modes of transportation remains DOT’s overarching goal.
           Significant challenges remain for policymakers as they seek to continue enhancing
           safety in the air and on the ground. This includes advancing new regulations for pilot
           training and rest requirements, strengthening the process for granting special permits
           and approvals for transporting hazardous materials, and ensuring pipeline operators
           identify and repair defects in oil and gas pipelines in a timely manner. Longstanding
           concerns that demand sustained attention include establishing realistic plans for the
           Next Generation Air Transportation System, securing viable financing for future
           surface transportation infrastructure investments, bolstering Federal oversight of
           transit safety, and addressing the Nation’s aging surface infrastructure. At the same
           time, DOT must continue to improve contract management and safeguard its complex
           information and technology systems from cyber threats.

           Budget constraints and uncertain financial markets exacerbate these challenges. With
           the passage of the American Recovery and Reinvestment Act of 2009 and the
           Consumer Assistance To Recycle and Save (CARS) Program, DOT was tasked with
           rapidly disbursing billions of dollars to thousands of transportation projects and to
           consumers who were encouraged to trade in their vehicles for new, more fuel-efficient

           2011 Top Management Challenges, Department of Transportation
vehicles. Thus far, DOT has obligated almost $41 billion in Recovery Act funds. The
commitment of the Secretary and his staff to the success of DOT’s initiatives is
evidenced by their response to our ARRA reports and advisories and the prompt
implementation of the CARS Program.

We continue to build a body of work to assist DOT with its critical mission; improve
the management and execution of programs; and protect its resources from fraud,
waste, abuse, and violations of law. We considered several criteria in identifying the
following nine challenges, including their impact on safety, documented
vulnerabilities, large dollar implications, and DOT’s ability to effect change in these
areas:

 • Ensuring Transparency and Accountability in the Department’s Recovery Act
   Programs

 • Maintaining Momentum in the Department’s Oversight of Highway, Motor
   Vehicle, Hazardous Materials, and Transit Safety

 • Maintaining Momentum in Addressing Human Factors and Improving Safety
   Oversight of the Aviation Industry

 • Improving the Department’s Oversight of Highway, Transit, and Pipeline
   Infrastructure

 • Identifying Sufficient Funding Sources To Support Future Federal Investment in
   Surface Transportation Infrastructure

  • Transforming the Federal Railroad Administration To Address Significantly
    Expanded Oversight Responsibilities

  • Advancing the Next Generation Air Transportation System While Ensuring the
    Safe and Efficient Operation of the National Airspace System

  • Implementing Processes To Improve the Department’s Acquisitions and Contract
    Management

  • Improving the Department’s Cyber Security

Given the fiscal pressures facing the Federal Government, strong leadership and
careful stewardship of taxpayer dollars are critical to successfully addressing DOT’s
top challenges. Trade-offs among diverse programs will likely be required, but there
are important opportunities to minimize these trade-offs by setting priorities and
establishing sound management policies, practices, and procedures.



2011 Top Management Challenges, Department of Transportation                          ii
We are committed to keeping decision makers informed of emerging and
longstanding issues identified through our audits and investigations. We appreciate
DOT’s responsiveness to our findings and recommendations and the commitment to
taking prompt corrective action.

This report and DOT’s response will be included in the Department’s Performance
and Accountability Report, as required by law. DOT’s response is included in its
entirety in the appendix to this report.

If you have any questions regarding the issues presented in this report, please contact
me at (202) 366-1959. You may also contact Lou E. Dixon, Principal Assistant
Inspector General for Auditing and Evaluation, at (202) 366-1427.

                                                #

cc: Martin Gertel, M-1




2011 Top Management Challenges, Department of Transportation                         iii
                                                  Table of Contents


Ensuring Transparency and Accountability in the Department’s Recovery Act Programs ...... 1

Maintaining Momentum in the Department’s Oversight of Highway, Motor Vehicle,
Hazardous Materials, and Transit Safety .................................................................................. 5

Maintaining Momentum in Addressing Human Factors and Improving Safety Oversight of
the Aviation Industry .............................................................................................................. 10

Improving the Department’s Oversight of Highway, Transit, and Pipeline Infrastructure .... 14

Identifying Sufficient Funding Sources To Support Future Federal Investment in Surface
Transportation Infrastructure ................................................................................................. 18

Transforming the Federal Railroad Administration To Address Significantly Expanded
Oversight Responsibilities ....................................................................................................... 22

Advancing the Next Generation Air Transportation System While Ensuring the Safe and
Efficient Operation of the National Airspace System ............................................................. 27

Implementing Processes To Improve the Department’s Acquisitions and Contract
Management ........................................................................................................................... 33

Improving the Department’s Cyber Security .......................................................................... 40

Comparison of Fiscal Year 2011 and 2010 Top Management Challenges.............................. 45

Appendix: Department Response .......................................................................................... 46
CHAPTER 1


Ensuring Transparency and
Accountability in the Department’s
Recovery Act Programs




Source: Federal Highway Administration

Since February 2009, the Department and its Operating Administrations have obligated
nearly $40 billion American Recovery and Reinvestment Act (ARRA) funds for more than
14,600 highway, bridge, transit, shipyard, airport, and rail projects across the Nation. In
February 2010, the Office of the Secretary of Transportation (OST) awarded Transportation
Investment Generating Economic Recovery (TIGER) discretionary grants to 51 recipients for
multimodal surface transportation projects. Now the Department and its Operating
Administrations will need to address a number of challenges associated with ensuring those
funds are spent effectively.

Key Challenges

•   Overseeing ARRA projects and expenditures
•   Executing OST’s TIGER discretionary grants program
•   Collecting quality data from award recipients




2011 Top Management Challenges, Department of Transportation                             1
CHAPTER 1

Ensuring Transparency and Accountability in the
Department’s Recovery Act Programs




Overseeing ARRA Projects and Expenditures The Department must ensure
adequate oversight and accountability to meet ARRA goals. Our June ARRA Advisory
reported that the Federal Highway Administration (FHWA) did not ensure states conducted
federally required “value engineering” studies1 on highway and bridge projects prior to
contract award. Further, the Government Accountability Office (GAO) recently reported
that staffing shortages may limit states’ ability to properly implement and manage ARRA
programs.2 With limited staff, it is critical that the Department identify high-risk areas and
target its resources accordingly. Additionally, the Office of Management and Budget (OMB)
directed agencies to use single audit reports to identify high-risk grantees, ensure resolution
of audit findings, and consider additional monitoring and inspections of these grantees.3
This is consistent with our August 2009 ARRA Advisory that proposed to FAA that it enhance
its risk-based approach to ensuring new ARRA grant recipients, that historically have not
administered funds effectively, receive increased oversight. FHWA’s national review teams
(NRT) also have the potential to enhance oversight of ARRA funds. Through NRT
assessments of state ARRA management processes and compliance with Federal
requirements, FHWA aims to identify problems needing corrective action as well as national
trends and potential new risks. However, FHWA needs to follow through and implement
the corrective actions identified by the NRTs to effectively use this new oversight tool.
Finally, vigilant oversight is needed to ensure that ARRA recipients meet ARRA’s goal to
complete projects within 3 years because nearly 2 years after ARRA was enacted, a
significant number of projects have yet to begin, including approximately 1,400 highway
projects.

Management attention is also needed to protect ARRA funds from fraud, waste, and abuse.
As of September 2010, we have 50 criminal investigations open for alleged crimes such as
false statements, false claims, prevailing wage violations, disadvantaged business enterprise
(DBE) fraud, and bid rigging. DBE fraud accounts for more than 30 percent of our ARRA-
related investigations, compared to 10 percent for our non-ARRA investigations.
Underbidding on ARRA-funded transportation projects is also a concern. Many winning bids
are 20 to 30 percent below engineer’s estimate, increasing the risk that some contractors
1
    Value engineering studies are objective reviews of reasonable design alternatives. Bridges and highways with costs
    equal to or above $20 million and $25 million, respectively, are required to have value engineering studies.
2
    GAO, State and Local Governments: Fiscal Pressures Could Have Implications for Future Delivery of Intergovernmental
    Programs, GAO-10-899, July 2010.
3
    OMB Memorandum, “Updated Guidance on the American Recovery and Reinvestment Act,” March 22, 2010.



2011 Top Management Challenges, Department of Transportation                                                         2
CHAPTER 1

Ensuring Transparency and Accountability in the
Department’s Recovery Act Programs




may attempt to make up the difference by submitting false claims or committing another
form of fraud.

Executing OST’s TIGER Discretionary Grants Program In February 2010, OST
awarded $1.5 billion in TIGER discretionary grants to 51 recipients for multimodal surface
transportation projects. As OST moves from grant selection and award into TIGER program
execution, it must provide the enhanced oversight that ARRA and OMB require. Yet, OST
does not have direct experience administering grant programs and overseeing capital
investments in surface transportation infrastructure. OST is leveraging oversight expertise
within the Department by delegating grant oversight to the Operating Administrations.
However, OST must provide stewardship by clearly defining its role and oversight strategy—
including the levels of authority and accountability it will retain—and allocate adequate
resources and expertise to ensure that TIGER program goals are achieved and ARRA funds
are spent wisely.

Collecting Quality Data From Award Recipients On behalf of the Recovery
Accountability and Transparency Board, we assessed the Department’s and six other
agencies’ oversight of ARRA recipient data. Each agency identified inaccuracies in recipient
data in significant areas, including award type, date, and amount or the number of jobs
created. Several factors contributed to these errors, including misinterpretation of
guidance and technical challenges. While surveyed agencies have taken steps to address
these problems, continued vigilance will be needed to meet the level of accountability
called for in ARRA.


Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•   Letter to Ranking Member Issa on DOT’s Use of ARRA Signage, August 17, 2010
•   ARRA Advisory: FAA’s Process for Awarding ARRA Airport Improvement Program Grants,
    August 6, 2009
•   ARRA Advisory: FHWA’s Oversight of the Use of Value Engineering Studies on ARRA
    Highway and Bridge Projects, June 28, 2010




2011 Top Management Challenges, Department of Transportation                              3
CHAPTER 1

Ensuring Transparency and Accountability in the
Department’s Recovery Act Programs




•   Federal Railroad Administration Faces Challenges in Carrying Out Expanded Role,
    April 29, 2010
•   Weaknesses in DOT’s Suspension and Debarment Program Limit Its Protection of
    Government Funds, March 18, 2010
•   Recovery Act Data Quality: Errors in Recipients’ Reports Obscure Transparency,
    February 23, 2010
•   Letter to Senator Mark Pryor on DOT OIG’s Recovery Act Oversight Activities,
    February 19, 2010
•   Final Report on DOT’s Suspension and Debarment Program, January 7, 2010
•   Final Report on DOT’s Implementation of the American Recovery and Reinvestment Act:
    Continued Management Attention Is Needed To Address Oversight Vulnerabilities,
    November 30, 2009




For more information on the issues identified in this chapter, please contact
Madeline Chulumovich, Chief of Staff, at (202) 366-1959 or Joseph W. Comé,
Assistant Inspector General for Highway and Transit Audits, at (202)-366-
5630.


2011 Top Management Challenges, Department of Transportation                         4
CHAPTER 2


Maintaining Momentum in the
Department’s Oversight of Highway,
Motor Vehicle, Hazardous Materials, and
Transit Safety




Source: Julie Nixon, John A. Volpe National Transportation Systems Center

Over the last 5 years, fatalities and injuries related to motor vehicle crashes declined by
22.3 percent and 18.5 percent, respectively. This decline is noteworthy; now, the
Department must tackle persistent challenges to maintain this trend and address
longstanding concerns with vehicle, motor carrier, pipeline, and transit safety concerns.

Key Challenges
•   Addressing motor vehicle safety defects
•   Strengthening motor carrier enforcement programs and commercial driver’s license
    (CDL) standards
•   Strengthening the Pipeline and Hazardous Materials Safety Administration’s (PHMSA)
    special permits and approvals program to achieve its safety mission
•   Addressing potential issues if Congress enhances Federal oversight authority for transit
    safety




2011 Top Management Challenges, Department of Transportation                              5
CHAPTER 2

Maintaining Momentum in the Department’s Oversight of
Highway, Motor Vehicle, Hazardous Materials, and Transit
Safety




Addressing Motor Vehicle Safety Defects The National Highway Traffic Safety
Administration (NHTSA) conducts tests, inspections, and investigations to identify motor
vehicles and equipment that contain safety-related defects and ensure the public is notified
so defects can be corrected. In 2002 and 2004, we reported that NHTSA had weaknesses in
its defect investigation systems and processes, including a lack of reliable early warning
reporting information. 4 In response, NHTSA revised its defect assessment processes and
established an Early Warning Division to analyze manufacturer data for identifying potential
safety-related defects.

In 2010, NHTSA’s defects investigation program came under increased media and
congressional scrutiny due to complaints of sudden unintended acceleration and crashes
involving Toyota Motor Corporation vehicles. For example, in August 2009, a Lexus sped
out of control and crashed, killing its driver and three passengers. NHTSA’s investigations of
the complaints resulted in 3 Toyota recalls, affecting 8 million vehicles. NHTSA also enlisted
the National Aeronautics and Space Administration and the National Academy of Sciences
to investigate the sudden unintended acceleration issue. We are currently determining
whether there are lessons learned from Toyota recalls as well as any improvements needed
in NHTSA’s processes, procedures, and recourses for investigating safety defects. This work
is based in part on a request from the Secretary of Transportation and Members of
Congress.

Strengthening Motor Carrier Enforcement Programs and CDL Standards
From 2008 to 2009, the number of fatalities related to crashes involving large trucks or
buses dropped by 20 percent.5 To ensure this trend continues, the Federal Motor Carrier
Safety Administration (FMCSA) must follow through on previous commitments, maintain its
efforts to enforce safety regulations, and remove motor carriers and drivers who do not
comply. FMCSA has begun several initiatives to ensure new and existing operators in the
motor carrier industry operate safely. For example, the Agency implemented a more
stringent safety assurance process that new entrants must complete before receiving
permanent operating authority as well as a new vetting process for passenger and
household goods carriers to prevent unsafe carriers from continuing operations under a
4
    OIG Report Number MH-2002-071, “Review of the Office of Defects Investigation, National Highway Traffic Safety
    Administration," January 3, 2002, and OIG Report Number MH-2004-088, “Report on Follow-Up Audit of the National
    Highway Traffic Safety Administration’s Office of Defects Investigation,” September 23, 2004.
5
    Motor Carrier Safety Progress Report, Federal Motor Carrier Safety Administration, as of June 30, 2010.



2011 Top Management Challenges, Department of Transportation                                                     6
CHAPTER 2

Maintaining Momentum in the Department’s Oversight of
Highway, Motor Vehicle, Hazardous Materials, and Transit
Safety




new identity. FMCSA still needs to expand this vetting process to all new entrant applicants
in the motor carrier industry. In 2011, FMCSA plans to fully implement its Comprehensive
Safety Analysis 2010 (CSA 2010) model, which is designed to identify high-risk carriers with
safety issues that could reasonably lead to crashes. CSA 2010 will rely heavily on crash,
inspection, and census data.

While FMCSA has made progress in improving crash and inspection data, it has yet to
implement a longstanding Office of Inspector General recommendation to improve carrier
census data reporting, 6 which would improve its ability to rank the safety performance of
motor carriers and target inspection and enforcement activities. Other areas that require
action include improving knowledge and skills testing standards for CDLs, new minimum
standards for states to issue commercial drivers’ permits, and CDL fraud prevention efforts.
Delays in implementing these recommendations are largely due to the complexity of
coordinating with states and other stakeholders. Taking timely action to implement fraud
prevention efforts is especially important as Office of Inspector General investigations have
uncovered various schemes by individuals to circumvent FMCSA standards for issuing
commercial drivers’ licenses. For example, a Louisiana-registered third-party CDL tester
admitted that he conspired and fraudulently conducted approximately 250 CDL skills tests
for $200 per test. The tester was sentenced to 5 years probation and ordered to make
restitution of over $7,300. Additionally, the Louisiana Department of Public Safety, Office of
Motor Vehicles recalled and retested all CDL drivers tested by this individual.

Going forward, the Department must complete ongoing efforts and resolve issues related to
finalizing CDL standards to improve the safety of the motor carrier industry operating large
trucks and buses on our Nation’s highways.




6
    Census data are to be provided by motor carriers on the number of drivers they employ and commercial
    vehicles (power units) they own or lease.


2011 Top Management Challenges, Department of Transportation                                          7
CHAPTER 2

Maintaining Momentum in the Department’s Oversight of
Highway, Motor Vehicle, Hazardous Materials, and Transit
Safety




Strengthening PHMSA’s Special Permits and Approvals Program To
Achieve Its Safety Mission PHMSA regulates up to 1 million movements of
hazardous materials a day. Many of these materials are transported under special permits
and approvals that allow relief from the Hazardous Materials Regulations under certain
conditions.7 Our work has pointed to longstanding concerns about PHMSA’s process for
assessing risks and granting special permits and approvals as well as its fundamental
operating procedures for promoting the safe movement of hazardous materials. In 1 case,
PHMSA granted a special permit to a company that had 53 incidents within 10 years—12 of
which were serious—and 22 violations issued by PHMSA’s or FMCSA’s enforcement office.
Also of concern is PHMSA’s practice of granting special permits to trade associations—
effectively giving “blanket authorization” to thousands of member companies without any
assessment of their safety histories or need for the permit.

PHMSA has established action plans to address the safety concerns we identified. To
successfully implement these plans, PHMSA must proactively identify safety risks, work with
partner safety agencies to resolve safety and operational matters, and set targeted
oversight priorities.

Addressing Potential Issues if Congress Enhances Federal Oversight
Authority for Transit Safety In 2009, 3 rail-to-rail crashes in different cities killed
9 people and injured 159 others; in separate incidents, 3 transit employees were killed
while working on rail tracks. While transit remains a relatively safe mode of travel, these
recent rail incidents brought renewed attention to transit safety.

In December 2009, the Department proposed legislation that would shift its role from
providing guidance for state-managed oversight programs to directly overseeing transit
safety. An enhanced Federal role may create significant challenges for the Department,
including (1) collecting data necessary to conduct effective transit safety oversight,
(2) establishing standards to improve transit safety among a diverse set of systems across
the country, and (3) conducting enhanced transit safety oversight and enforcement. The
Secretary has established the Transit Rail Advisory Committee for Safety (TRACS)—a Federal
7
    Special permits authorize a holder to vary from specific provisions of the Hazardous Materials Regulations; identify the
    section(s) from which relief is provided; and include provisions, conditions, and terms that must be followed in order for
    the special permit to be valid. An approval means written consent from PHMSA’s Associate Administrator to perform a
    function that requires prior consent under the Hazardous Materials Regulations.



2011 Top Management Challenges, Department of Transportation                                                                8
CHAPTER 2

Maintaining Momentum in the Department’s Oversight of
Highway, Motor Vehicle, Hazardous Materials, and Transit
Safety




advisory committee comprised of rail safety experts from transit agencies, state safety
oversight agencies, labor unions, and other key constituencies—which could provide an
important forum for addressing the challenges associated with enhanced oversight.

Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•   Actions Taken and Needed To Improve Management and Oversight of PHMSA’s
    Hazardous Materials Special Permits and Approvals Program, April 22, 2010
•   New Approaches Needed in Managing PHMSA’s Special Permits and Approvals Program,
    March 4, 2010
•   PHMSA’s Process for Granting Special Permits and Approvals for Transporting Hazardous
    Materials Raises Safety Concerns, September 10, 2009
•   Audit of the Data Integrity of the Commercial Driver’s License Information System,
    July 30, 2009
•   Use of Income Derived from the Commercial Driver’s License Information System for
    Modernization, July 10, 2008
•   Best Practices for Improving Oversight of State Highway Safety Programs,
    March 25, 2008
•   Effectiveness of Federal Drunk Driving Programs, October 25, 2007
•   Audit of the National Highway Traffic Safety Administration’s Alcohol-Impaired Driving
    Traffic Safety Program, March 5, 2007
•   Follow-Up Audit on National Highway Traffic Safety Administration’s Office of Defects
    Investigation, September 23, 2004
•   Review of the National Highway Traffic Safety Administration’s Office of Defects
    Investigation, January 3, 2002




For more information on the issues identified in this chapter, please contact
Joseph W. Comé, Assistant Inspector General for Highway and Transit Audits,
at (202) 366-5630 or Jeffrey B. Guzzetti, Assistant Inspector General for
Aviation and Special Program Audits, at (202) 366-0500.

2011 Top Management Challenges, Department of Transportation                            9
CHAPTER 3


Maintaining Momentum in Addressing
Human Factors and Improving Safety
Oversight of the Aviation Industry




The aviation industry continues to experience one of the safest periods in its history due to
both Federal Aviation Administration (FAA) and industry efforts to advance safety.
However, the crash of Colgan Air flight 3407 in February 2009 confirmed the need for
constant vigilance.

Key Challenges
•     Advancing industry and Government efforts to address pilot training and fatigue issues
•     Enhancing risk-based oversight of Part 121 air carriers 8 and foreign and domestic repair
      stations
•     Ensuring FAA provides effective oversight of mainline and regional air carriers operating
      under domestic code share agreements




8
    14 CFR Part 121 governs the operations of large, scheduled commercial passenger and cargo carriers.



2011 Top Management Challenges, Department of Transportation                                              10
CHAPTER 3

Maintaining Momentum in Addressing Human Factors and
Improving Safety Oversight of the Aviation Industry




Advancing Industry and Government Efforts To Address Pilot Training
and Fatigue Issues According to the National Transportation Safety Board (NTSB),
pilot fatigue has been associated with air carrier accidents resulting in 250 fatalities over the
last 16 years. Although NTSB has identified this issue as an area of concern for all air
carriers, it is particularly critical for regional carriers. NTSB has cited pilot performance and
fatigue as findings in four of the last six fatal accidents involving regional carriers, including
the fatal crash of Colgan Air flight 3407 in February 2009. Under the FAA Administrator’s
leadership, FAA took swift action by creating the Call to Action plan to refocus and
accelerate air carriers’ safety efforts. The plan consists of 10 short- and mid-term initiatives
to enhance pilot performance and training, increase air carrier participation in voluntary
safety programs, and expand pilot records review. FAA also set goals to develop new safety
oversight guidance for its inspectors, conduct regional safety forums, develop programs
addressing pilot professionalism, and establish new rules on pilot fatigue and training.

FAA has issued two Notices of Proposed Rule Making to address pilot fatigue and training.
The first rule would require airlines to enhance FAA-required pilot training programs,
including training on hazards, such as loss of control, and recovery from approach to stalls.
The rule also calls for enhanced training for flight attendants and dispatchers. The second
proposed rule would require a single set of scientifically based flight, duty, and rest
requirements for all Part 121 carriers. However, this proposed rule does not address NTSB’s
recommendation to require air carriers to address fatigue risks associated with pilot
commuting—a key finding NTSB identified in its investigation into the Colgan accident.
Maintaining positive momentum on these rulemakings will be an important watch item for
the Department, industry, and Congress.

Enhancing Risk-Based Oversight of Part 121 Air Carriers and Foreign
and Domestic Repair Stations FAA has made noteworthy progress in improving
safety oversight, such as clarifying guidance for inspectors who monitor air carriers.
However, we continue to find weaknesses in FAA’s Air Transportation Oversight System
(ATOS)—a systematic approach for identifying high-risk safety areas and targeting
inspections to those areas. Specifically, FAA’s oversight of ATOS inspections has been
ineffective at the national level, in large part because FAA does not track unassigned
inspections or fully use collected inspection data.




2011 Top Management Challenges, Department of Transportation                                   11
CHAPTER 3

Maintaining Momentum in Addressing Human Factors and
Improving Safety Oversight of the Aviation Industry




At the same time, we have repeatedly highlighted weaknesses since 2003 in FAA’s oversight
of aircraft maintenance and called for safety enhancements. While FAA has made a number
of procedural changes to improve its oversight of repair stations, it has not addressed our
most significant and longstanding recommendations to identify facilities performing safety-
critical repairs and target its surveillance accordingly. Given air carriers’ increasing reliance
on repair stations, it is imperative that FAA provide more rigorous oversight of this industry.

Ensuring FAA Provides Effective Oversight of Mainline and Regional Air
Carriers Operating Under Domestic Code Share Agreements Mainline and
regional air carriers have increasingly turned to domestic code share agreements—a
marketing arrangement in which one air carrier sells and issues tickets for the flight of
another carrier as if it were operating the flight itself. Through these arrangements,
passengers receive lower fares and more seamless air travel, regional carriers benefit from
joint promotion and advertising, and mainline carriers gain access to additional and smaller
aircraft with no ownership stake for bringing passengers to their hub.

Domestic code share agreements are an integral part of the aviation system. While they
can help mainline and regional carriers expand their markets and increase revenue, they
also present challenges. For example, we have identified differences between the hiring,
training, professionalism, and safety programs of most regional and mainline carriers.
While FAA initiated a Call to Action for airline safety to encourage mainline and regional
carriers to reconcile these differences, progress has been mixed. FAA and the Department
must make oversight of the operators involved in these arrangements a top priority to
ensure the safety of passengers who depend on those flights. This is particularly critical
given that since 2003, seven commercial airline accidents have involved regional air carriers.




2011 Top Management Challenges, Department of Transportation                                  12
CHAPTER 3

Maintaining Momentum in Addressing Human Factors and
Improving Safety Oversight of the Aviation Industry




Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•   FAA’s Process for Reviewing Air Transportation Oversight System (ATOS) Inspection
    Data, March 19, 2010
•   Progress and Challenges with FAA’s Call to Action for Airline Safety, February 4, 2010
•   Letter to Senator Claire McCaskill Regarding FAA’s Progress in Implementing Past OIG
    Recommendations To Improve Oversight of Outsourced Maintenance, January 11, 2010
•   The Federal Aviation Administration’s Role in Safety Oversight of Air Carriers,
    June 10, 2009
•   Review of FAA’s Oversight of Airlines and Use of Regulatory Partnership Programs,
    June 30, 2008




For more information on the issues identified in this chapter, please contact
Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and Special
Program Audits, at (202) 366-0500.



2011 Top Management Challenges, Department of Transportation                           13
CHAPTER 4


Improving the Department’s Oversight of
Highway, Transit, and Pipeline
Infrastructure




Source: U.S. Department of Transportation

The Department faces significant challenges in overseeing highway, transit, and pipeline
infrastructures, especially given current fiscal constraints. According to the American
Society of Civil Engineers, $186 billion is needed each year to substantially improve the
Nation’s roads that are in poor or mediocre condition—well above the $70 billion spent
annually on highway improvements. 9 At the same time, the Department projects shortfalls
in the Highway Trust Fund, which provides most of the funding for highway and transit
programs.10 Recent gas pipeline ruptures also point to a need for program improvements to
identify and repair defective pipes and ensure public safety.

Key Challenges
• Tracking and monitoring states’ and localities’ use of Federal funds
• Ensuring infrastructure safety and protecting federally funded highway and transit
       projects from fraud
• Ensuring pipeline operators identify and repair defects in oil and gas pipelines in a timely
       manner

9
     American Society of Civil Engineers, “2009 Report Card for America's Infrastructure,” 2009.
10
     See chapter 5 for a discussion of Highway Trust Fund issues.



2011 Top Management Challenges, Department of Transportation                                       14
CHAPTER 4

Improving the Department’s Oversight of Highway,
Transit, and Pipeline Infrastructure




Tracking and Monitoring States’ and Localities’ Use of Federal Funds
With the Nation’s highway and transit infrastructure needs increasing faster than funding
resources, the Department must maximize the return on its surface transportation
investments.     The Federal Highway Administration’s (FHWA) Fiscal Management
Information System (FMIS) lacks sufficient detail on states’ use of Highway Bridge Program
(HBP) funds. 11 For example, Michigan used almost $3 million in HBP funds on a project that
involved multiple bridges, but FHWA could not use FMIS to determine how much Federal
funding went toward improving the condition of the project’s structurally deficient bridges.
Expanding FMIS’s capabilities would allow FHWA to better assess the effectiveness of
current programs and enable it to stretch every available infrastructure dollar.

The Department’s large portfolio of transit infrastructure projects also demands rigorous
oversight to ensure projects stay on schedule and within budget. While the Federal Transit
Administration (FTA) has required sponsors of major projects to develop project
management, project execution, and financial plans, it has not always fully used these plans
to monitor project progress. For example, FTA approved an early systems work agreement
last year to expedite the Access to the Region’s Core (ARC) project 12 in New York and New
Jersey, and awarded $130 million in ARRA funds for project activities. However, FTA had
not received a final project management plan, project execution sub-plans, a master
schedule, or a financial plan that described strategies for mitigating risks. The lack of
finalized plans has hindered FTA’s oversight of the project sponsor’s efforts to mitigate risks
that could increase costs or cause schedule delays.

Ensuring Infrastructure Safety and Protecting Federally Funded Highway and Transit
Projects From Fraud The 2007 bridge collapse in Minnesota highlighted the need for FHWA
to focus on the safety of the Nation’s surface transportation infrastructure. According to
FHWA, about one-quarter of the Nation’s more than 600,000 bridges have major
deterioration, cracks in their structural components, or other deficiencies. 13 Our work has
identified weaknesses in FHWA’s enforcement of National Bridge Inspection Standards and
called for sustained management attention to ensure that planned improvements in the

11
     HBP is the primary Federal program that funds the replacement and rehabilitation of bridges nationwide.
12
     ARC involves the construction of a 9-mile commuter rail line between Secaucus, New Jersey, and Manhattan, New York.
     It includes construction of two tunnels under the Hudson River. The estimated cost is $9.23 billion.
13
     This estimate is based on 2009 data.




2011 Top Management Challenges, Department of Transportation                                                        15
CHAPTER 4

Improving the Department’s Oversight of Highway,
Transit, and Pipeline Infrastructure




inspection oversight program are implemented. Given the potentially catastrophic risks of
not properly inspecting bridges, FHWA must determine with greater consistency whether
states complied with the National Bridge Inspection Standards and define procedural steps
for enforcing compliance.

Enhanced FHWA oversight is also needed for new highway projects to ensure they comply
with all relevant standards and requirements. After the Central Artery/Tunnel (CA/T)
Project in Boston was declared substantially complete in January 2006, 26 tons of
improperly secured concrete ceiling panels fell in one of the project’s tunnels and killed a
motorist in July of that year. While the Commonwealth of Massachusetts initiated a “Stem
to Stern” safety review that included the CA/T Project, FHWA did not always follow its
protocols for conducting independent field verifications to assess the Commonwealth’s
progress in resolving safety risks.

With the number of highway and transit projects receiving Federal assistance, it is
imperative that the Department and Operating Administrations aggressively combat fraud,
waste, and abuse. Fraud awareness education and vigilant oversight are needed to identify
and prevent common fraud schemes, such as bid rigging, price fixing, product substitution,
bribery and kickbacks, conflicts of interest, false statements and false claims, labor and
materials overbilling, and disadvantaged business enterprise fraud. Of particular concern
are schemes that compromise safety. For example, a Utah corporation specializing in the
installation of highway safety devices was sentenced to 36 months of probation, ordered to
pay a fine of $10,000, and $31,485.45 in restitution for falsifying certificates of compliance
related to the installation of highway crash cushions of a FHWA-funded project. The
company admitted to submitting false certificates even though it knew that the installation
of these devices did not meet contract specifications.

Ensuring Pipeline Operators Identify and Repair Defects in Oil and Gas
Pipelines in a Timely Manner The Nation’s aging oil and gas pipelines are vulnerable
to ruptures caused by corrosion and pipe defects. Federal regulations require pipeline
operators to maintain integrity management programs, which are regulated and inspected
by the Pipeline and Hazardous Materials Safety Administration (PHMSA) or its state
partners. However, recent pipeline ruptures—including the explosion of a 54-year old gas
pipeline in California that killed 8 people and destroyed 37 homes—call into question the
effectiveness of operator programs as well as Federal and state oversight. For example, in


2011 Top Management Challenges, Department of Transportation                              16
CHAPTER 4

Improving the Department’s Oversight of Highway,
Transit, and Pipeline Infrastructure




July 2010, a 41-year-old Enbridge Energy interstate pipeline in Michigan leaked more than
800,000 gallons of oil. Although the company had reported nearly 330 integrity threats
(including defects) on this pipeline segment, Enbridge’s remediation plan requested a 30-
month extension to complete needed repairs. However, the rupture occurred before
PHMSA responded to this request. Going forward, PHMSA and its state partners need to
closely scrutinize pipeline operator integrity management programs to ensure that defects
are identified and repaired before catastrophic ruptures occur.


Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

• Actions Needed To Mitigate Risks Associated with the Access to the Region’s Core
    Project, May 17, 2010
•   The Commonwealth of Massachusetts’s Safety Review of the Central Artery/Tunnel
    Project Was Comprehensive, but FHWA’s Oversight Approach Has Shortcomings,
    April 20, 2010
•   Assessment of FHWA Oversight of the Highway Bridge Program and the National Bridge
    Inspection Program, January 14, 2010
•   DOT’s Implementation of the American Recovery and Reinvestment Act: Continued
    Management Attention Is Needed To Address Oversight Vulnerabilities,
    November 30, 2009




For more information on the issues identified in this chapter, please contact
Joseph W. Comé, Assistant Inspector General for Highway and Transit Audits,
at (202) 366-5630 or Jeffrey B. Guzzetti, Assistant Inspector General for
Aviation and Special Program Audits, at (202) 366-0500.


2011 Top Management Challenges, Department of Transportation                          17
CHAPTER 5


Identifying Sufficient Funding Sources
To Support Future Federal Investment in
Surface Transportation Infrastructure




Source: Federal Highway Administration

The Department has worked with Congress to maintain the Highway Trust Fund’s (HTF)
solvency, but the current short-term fixes are unsustainable and make future cash shortfalls
inevitable. The Safe, Accountable, Flexible, Efficient, Transportation Equity Act: A Legacy for
Users (SAFETEA-LU) of 2005—the most recent surface transportation authorization act—
was due to expire at the end of fiscal year 2009 but continues to operate under a series of
short-term extensions. Most recently, the Hiring Incentives To Restore Employment Act
extended SAFETEA-LU through December 2010 and transferred $19.5 billion from the
General Fund to preempt foreseeable cash shortfalls in the HTF.

Key Challenges
•   Replacing short-term fixes for HTF solvency with long-term solutions
•   Achieving consensus among stakeholders on Federal infrastructure needs, spending
    levels, and a funding framework for the next surface transportation reauthorization




2011 Top Management Challenges, Department of Transportation                              18
CHAPTER 5

Identifying Sufficient Funding Sources To Support
Future Federal Investment in Surface Transportation
Infrastructure




Replacing Short-Term Fixes for HTF Solvency With Long-Term Solutions
Historically, cash receipts into HTF’s Highway and Mass Transit Accounts exceeded outlays,
leading to a surplus that peaked at $31.1 billion at the end of fiscal year 2000 (see figure
5.1). However, with the enactment of the Transportation Equity Act for the 21st Century
(TEA-21) in 1998, outlays began to outpace receipts, eroding the surplus. SAFETEA-LU
further eroded the surplus by increasing contract authority over TEA-21 levels without an
associated increase in funding. High fuel prices and a lagging economy resulted in an
unforeseen decline in vehicle miles travelled (VMT) and a more rapid decline in the Highway
Account balance than anticipated. Prior to receiving the $4.8 billion cash infusion into the
Mass Transit Account earlier this year, the Federal Transit Administration projected that the
account would experience a shortfall in fiscal year 2011.

Figure 5.1. Historical Cash Balances in Highway and Mass Transit Accounts, Fiscal Years
1995 through 2010, in Billions of Dollars




Source: Federal Highway Administration, Federal Transit Administration
Note: In 1999, $8 billion was transferred from the Highway Account to the General Fund. Fiscal year 2010 amounts are
preliminary and subject to adjustment.

Without cash infusions from the General Fund, the Federal Highway Administration would
have been forced to reduce or suspend disbursements to states for eligible surface
transportation expenses.


2011 Top Management Challenges, Department of Transportation                                                   19
CHAPTER 5

Identifying Sufficient Funding Sources To Support
Future Federal Investment in Surface Transportation
Infrastructure




Achieving Consensus Among Stakeholders on Federal Infrastructure
Needs, Spending Levels, and a Funding Framework for the Next Surface
Transportation Reauthorization Citing the critical role surface transportation
infrastructure plays in the Nation’s quality of life and economic productivity, the House
Transportation and Infrastructure Committee unveiled legislation in June 2009 that
proposed $500 billion in funding to support state surface transportation programs over
6 years. This proposed spending level is significantly higher than the $244 billion authorized
by SAFETEA-LU over a 5-year period. Of this amount, $450 billion is proposed for highway,
public transportation, and safety programs and $50 billion for high speed rail.

The Administration recently issued its framework for the next surface transportation
authorization bill. The plan envisions 150,000 miles of roads rebuilt, 4,000 miles of rail
constructed and maintained, and 150 miles of runway rehabilitated or reconstructed over
the next 6 years. However, the Department has yet to define the spending levels needed to
meet the Nation’s surface transportation infrastructure requirements.

Yet, the current funding mechanismwhich relies heavily on excise taxes on fuel and the
sales of trucks and tiresdoes not generate the cash receipts needed to meet current
outlays, let alone the larger outlays proposed in the next authorization. Further, given the
current economic environment, the Administration opposes an increase in fuel tax rates or
the establishment of a VMT-based fee, both of which Congress has discussed as methods of
increasing the HTF’s cash receipts. The next authorization must establish a funding
framework that aligns proposed spending levels with the HTF’s cash receipts. Without this
alignment, the HTF will continue to experience shortfalls and risk reducing state and local
investments in surface transportation infrastructure projects.

The solution to ending the HTF’s funding gap is neither obvious nor imminent. As the
Department and congressional and other stakeholders evaluate alternative funding
mechanisms and enact the next surface transportation authorization, the Department must
also work with Congress to ensure the HTF is adequately funded during any extensions of
SAFETEA-LU. Failure to do so could significantly impact the solvency of the Highway and
Mass Transit Accounts and their ability to continue reimbursements to states and transit
authorities for eligible highway and transit expenses.




2011 Top Management Challenges, Department of Transportation                             20
CHAPTER 5

Identifying Sufficient Funding Sources To Support
Future Federal Investment in Surface Transportation
Infrastructure




Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•   Letter to Senate Budget Committee Ranking Member Gregg Regarding DOT’s
    Projections of Highway Trust Fund Solvency, June 24, 2009
•   Growth in Highway Construction and Maintenance Costs, September 26, 2007




For more information on the issues identified in this chapter, please contact
Mitch Behm, Assistant Inspector General for Rail, Maritime, and Economic
Analysis, at (202)-366-9970.



2011 Top Management Challenges, Department of Transportation                  21
CHAPTER 6


Transforming the Federal Railroad
Administration To Address Significantly
Expanded Oversight Responsibilities




Source: Federal Railroad Administration

The 2008 Railroad Safety Improvement Act (RSIA) and Passenger Railroad Investment and
Improvement Act (PRIIA)—two of the most comprehensive pieces of railroad legislation in
30 years—dramatically realigned and expanded the Federal Railroad Administration’s (FRA)
roles and responsibilities. In addition, the American Recovery and Reinvestment Act (ARRA)
infused an unprecedented amount of new capital into these new passenger rail programs
and drastically accelerated timeframes for implementation.

Key Challenges
•   Providing sufficient oversight of the implementation and management of the High
    Speed Intercity Passenger Rail (HSIPR) Program
•   Addressing new PRIIA requirements to enhance passenger rail
•   Ensuring the safe and secure movement of people and goods while undertaking
    increased passenger rail responsibilities
•   Balancing an increased and diversified workload with the continuing need to oversee
    Amtrak operations



2011 Top Management Challenges, Department of Transportation                          22
CHAPTER 6

Transforming the Federal Railroad Administration To
Address Significantly Expanded Oversight Responsibilities




Providing Sufficient Oversight of the Implementation and Management
of the HSIPR Program Historically, FRA’s responsibilities have focused on promoting
and overseeing railroad safety and providing grants and loans. The new HSIPR program—
authorized under PRIIA—greatly expanded the Agency’s responsibilities to include
distributing $10.5 billion in grants for passenger rail-related projects in a compressed
timeframe. To manage its expanded grants solicitation and award process, FRA requested
and received 27 additional staff resources in its fiscal year 2010 budget. The Agency also
requested 31 staff positions to support its additional requirements in fiscal year 2011.
Although FRA has not fully positioned itself to address the challenges it faces with
implementing the HSIPR program, it has moved forward with soliciting, accepting, and
awarding grants for states’ high-speed rail projects.

Securing these grants could be a significant challenge for states. According to FRA interim
guidance, funding will not be disbursed until states finalize agreements with freight
railroads that specify the passenger rail service improvements the projects are designed to
achieve. The freight railroads have, however, voiced concerns about certain service
outcome requirements in these agreements; specifically, that the requirements would be
unduly burdensome to their operations. Chief among these service outcome requirements
are rigid on-time performance metrics that require the freight railroad to incur any and all
expenses necessary to ensure the passenger rail service operating on the freight tracks runs
according to schedule.

Addressing New PRIIA Requirements To Enhance Passenger Rail PRIIA
tasked FRA with numerous other responsibilities, including initiatives to improve or
establish intercity passenger rail service; design a long-range national rail plan that
promotes an integrated, efficient, and optimized national rail system; and develop metrics
for passenger rail service quality. These responsibilities require FRA to perform a variety of
tasks and coordinate with a number of public and private entities. For example, in
developing a national rail plan, FRA must work with the rail industry and other stakeholders
to address interconnectivity with other modes of transportation, identify rail projects of
national significance, and consider sustainable funding options. To develop the final metrics
for assessing passenger rail service quality, FRA teamed with rail industry entities, including
Amtrak management and labor, the Surface Transportation Board, the freight railroads,
state rail departments, and non-profit rail passenger organizations. Yet, to ensure railroads
adhere to these metrics, which were effective beginning May 2010, FRA must collaborate



2011 Top Management Challenges, Department of Transportation                              23
CHAPTER 6

Transforming the Federal Railroad Administration To
Address Significantly Expanded Oversight Responsibilities




with passenger rail service providers to identify a standardized mechanism for collecting
and reporting train performance data.

All of these new tasks and requirements must be balanced against FRA’s traditional
responsibilities to administer its existing grant and loan programs: the Rail Line Relocation
discretionary grant program, the Railroad Rehabilitation and Improvement Financing loan
program, and the Amtrak grant program. These programs alone accounted for 37 percent
of FRA’s $4.4 billion fiscal year 2010 budget.

Ensuring the Safe and Secure Movement of People and Goods While
Undertaking Increased Passenger Rail Responsibilities Recent railroad
legislation also expanded FRA’s traditional safety role. Specifically, RSIA requires FRA to
develop a long-term strategy for improving railroad safety, which includes an annual plan to
address the following six goals:

•      Reduce the number and rates of accidents, incidents, injuries, and fatalities involving
       railroads caused by train collisions, derailments, and human factors.
•      Improve the consistency and effectiveness of enforcement and compliance programs.
•      Improve the identification of high-risk highway-rail grade crossings and strengthen
       enforcement and other methods to increase grade crossing safety.
•      Improve research efforts to enhance and promote railroad safety and performance.
•      Prevent railroad trespasser accidents, incidents, injuries, and fatalities.
•      Improve the safety of railroad bridges, tunnels, and related infrastructure to prevent
       accidents, incidents, injuries, and fatalities caused by catastrophic failures and other
       bridge and tunnel failures.

RSIA further requires FRA to establish a discretionary grant program, with authorized
funding of $50 million per year for fiscal years 2009 through 2013, to support the
development and deployment of positive train control (PTC) technologies. 14 While these
technologies may help FRA achieve RSIA’s safety goals, FRA has noted some concern on the

14
     “Positive train control” means a system designed to prevent collisions between trains, overspeed derailments
     (derailments caused when a train exceeds speed limits), incursions into established work zone limits, and the movement
     of a train through an improperly positioned switch.



2011 Top Management Challenges, Department of Transportation                                                         24
CHAPTER 6

Transforming the Federal Railroad Administration To
Address Significantly Expanded Oversight Responsibilities




part of freight railroads that investing in PTC will divert capital from near-term capacity
enhancements and lead to delays that cause more freight to shift onto already congested
highways. Such concerns place an even heavier burden on FRA to balance interests of
freight rail companies with the renewed focus and investment in the expansion of
passenger rail service throughout the United States.

Balancing an Increased and Diversified Workload with the Continuing
Need To Oversee Amtrak Operations In addition to its new and expanded
responsibilities, FRA must remain vigilant in its traditional role of overseeing Amtrak’s
operations and disbursing Amtrak’s annual grant funds. 15 This oversight role is reinforced in
several provisions of PRIIA. For example, PRIIA requires FRA to produce quarterly reports
on the performance and service quality of intercity passenger train operations, including
Amtrak’s cost recovery, ridership, on-time performance and minutes of delay, causes of
delay, on-board services, stations, facilities, equipment, and other services. Similarly, FRA
must oversee Amtrak’s compliance with applicable sections of the Americans with
Disabilities Act of 1990 and the Rehabilitation Act of 1974 to ensure that Amtrak’s services
and facilities are accessible to individuals with disabilities to the extent required by law. 16

PRIIA not only expanded FRA’s responsibilities but also added significantly to Amtrak’s
workload. For example, PRIIA requires Amtrak to implement a new cost accounting system
and spearhead a committee of various stakeholders to design and develop specifications for
a next generation train equipment pool. As Amtrak undertakes these new initiatives, FRA
will need to enhance its Amtrak oversight capabilities.


Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•      Amtrak Cascades and Coast Starlight Routes: Implementation of New Metrics and
       Standards Is Key To Improving On-Time Performance, September 23, 2010
•      Semiannual Report on Amtrak’s Financial and Operating Performance and Savings From
       Reform, May 17, 2010

15
     These grant funds totaled nearly $1.6 billion in fiscal year 2010.
16
     Amtrak was mandated to comply with requirements under the Americans with Disabilities Act of 1990 (ADA) by
     July 26, 2010. Amtrak is not yet in full compliance but has recently submitted an ADA compliance plan to Congress
     requesting additional funding and an extension of the ADA deadline.



2011 Top Management Challenges, Department of Transportation                                                     25
CHAPTER 6

Transforming the Federal Railroad Administration To
Address Significantly Expanded Oversight Responsibilities




•   “Federal Railroad Administration Faces Challenges in Carrying Out Expanded Role,”
    statement of Ann Calvaresi Barr, Deputy Inspector General, U.S. Department of
    Transportation before the Committee on Appropriations Subcommittee on
    Transportation, Housing and Urban Development, and Related Agencies, United States
    Senate, April 29, 2010
•   DOT’s Implementation of the American Recovery and Reinvestment Act: Continued
    Management Attention Is Needed To Address Oversight Vulnerabilities,
    November 30, 2009
•   American Recovery and Reinvestment Act of 2009: Oversight Challenges Facing the
    Department of Transportation, March 31, 2009




For more information on the issues identified in this chapter, please contact
Mitch Behm, Assistant Inspector General for Rail, Maritime, and Economic
Analysis, at (202)-366-9970.




2011 Top Management Challenges, Department of Transportation                        26
CHAPTER 7


Advancing the Next Generation Air
Transportation System While Ensuring
the Safe and Efficient Operation of the
National Airspace System




Source: Federal Aviation Administration

The Federal Aviation Administration (FAA) estimates there are around 7,000 aircraft in the
air over the United States at any given time. To better manage this capacity, FAA is
developing the Next Generation Air Transportation System (NextGen)—a satellite-based air
traffic control system intended to replace the current ground-based system. At the same
time, FAA must operate and sustain the existing National Airspace System (NAS).

Key Challenges
•   Establishing realistic plans and setting expectations for NextGen
•   Addressing problems with ongoing modernization projects that are essential to
    NextGen’s success



2011 Top Management Challenges, Department of Transportation                          27
CHAPTER 7

Advancing the Next Generation Air Transportation System
While Ensuring the Safe and Efficient Operation of the
National Airspace System




•   Maximizing the delivery and implementation of new performance-based navigation
    initiatives that can enhance capacity and reduce delays
•   Ensuring a sufficient number of certified professional controllers at facilities that are
    critical to the NAS

Establishing Realistic Plans and Setting Expectations for NextGen
NextGen is vital to revolutionizing our aviation system and the Nation’s long-term economic
growth. Yet, the Department and FAA have struggled with setting expectations for what can
reasonably be achieved in the near, mid, and long term. FAA plans to spend almost
$9 billion between fiscal years 2008 and 2015 specifically on NextGen-related programs,
which include a new satellite-based surveillance system and an information sharing system
(see figure 7.1).

Figure 7.1. FAA Capital Funding for Fiscal Years 2008 through 2015, in Millions of Dollars
    $4,000
    $3,500
    $3,000
    $2,500
    $2,000
    $1,500
    $1,000
      $500
         $0
               2008      2009      2010      2011      2012      2013     2014      2015

                       Remaining Facilities & Equipment        NextGen Funding
Source: FAA




2011 Top Management Challenges, Department of Transportation                                    28
CHAPTER 7

Advancing the Next Generation Air Transportation System
While Ensuring the Safe and Efficient Operation of the
National Airspace System




Last September, a government-industry task force made a series of recommendations for
advancing NextGen in the midterm.17 These included leveraging equipment already on
aircraft, enhancing information sharing among FAA and airspace users, and reducing delays.
FAA is incorporating the task force’s recommendations into its plans, but it has not yet
established detailed milestones to complete initiatives at high-activity locations that affect
delays nationwide, like New York. Earlier this year, the task force identified 20 gaps
between its recommendations and FAA’s plans. Many of these relate to differences in
milestones and locations as well as the need for FAA to develop more specific plans. In
addition, while FAA has endorsed the recommendations, it still faces several barriers with
respect to organizational culture, unresolved policy issues, and controller training that could
impede implementation and expected benefits.

In June 2010, we reported that FAA had made progress in developing a vision for NextGen
in the midterm but that it still needed to make a number of critical decisions to keep
NextGen on track. Specifically, FAA has not decided how to allocate new capabilities for
controllers among various automation systems or to what extent FAA facilities can be
realigned, co-located, or consolidated due to new technology. Much work also remains to
refine requirements and costs and establish metrics for measuring progress. These
decisions will materially affect the cost of NextGen. In addition, FAA has not fully leveraged
other Federal agencies’ existing research and development programs, including research at
the Department of Defense that could significantly reduce NextGen development costs.

Addressing Problems with Ongoing Modernization Projects That Are
Essential to NextGen’s Success Central to achieving NextGen’s goals is the
successful implementation of ongoing modernization projects that will provide platforms
for new NextGen capabilities. Of particular concern are problems with the $2.1 billion En
Route Automation Modernization (ERAM) program, which is intended to replace hardware
and software at facilities that manage high-altitude traffic. FAA originally planned to deploy
ERAM to 20 en route facilities by the end of 2010. However, during testing at ERAM’s initial
operating site, FAA encountered significant software-related problems, including radar
processing failures and handing off traffic between controllers. As a result, FAA stopped
ERAM testing in March 2010 to reexamine plans and develop corrective actions. FAA is
working with its contractor to address the more than 200 problems identified so far and to

17
     NextGen Mid-Term Implementation Task Force Report, September 9, 2009.



2011 Top Management Challenges, Department of Transportation                              29
CHAPTER 7

Advancing the Next Generation Air Transportation System
While Ensuring the Safe and Efficient Operation of the
National Airspace System




improve system stability. The cost and schedule to complete ERAM are uncertain, but
delays could be 2 years or longer. Delays with ERAM have serious consequences—FAA will
have to maintain aging systems longer, limit capacity enhancing improvements in the high-
altitude environment, and provide refresher training for controllers and maintenance
technicians who must be certified on two different systems. Prolonged problems with
ERAM could also have a cascading effect on implementing NextGen now and in the future,
including key systems such as the Automatic Dependent Surveillance-Broadcast (ADS-B)18
and Data Communications. 19

Maximizing the Delivery and Implementation of New Performance-Based
Navigation Initiatives That Can Enhance Capacity and Reduce Delays A
fundamental building block of FAA’s NextGen efforts is establishing new performance-based
navigation routes and procedures, using Area Navigation (RNAV) and Required Navigation
Performance (RNP) specifications. 20 The potential benefits of RNAV and RNP are significant
and include shorter, more direct flight paths; improved airport arrival and departure
efficiency; enhanced controller productivity; fuel savings; and reduced aircraft noise and
carbon emissions.

However, FAA has not widely implemented efficient RNP procedures, clarified the role of
non-government third parties in developing RNAV/RNP procedures, or developed metrics to
measure expected benefits. For example, FAA does not plan to rely on its two qualified
third-party vendors to design and implement public RNP procedures, but airline officials
stated that third parties may be needed to provide technical expertise for developing more
efficient RNP procedures. FAA has instead focused on producing a targeted number of
procedures—most of which are overlays of existing routes that do not provide shorter paths
to alleviate airspace congestion or are incompatible with existing air traffic policies at
airports with parallel runways. As a result, airlines that are equipped and approved for RNP
are not widely using FAA’s RNP procedures.

18
     ADS-B offers surveillance, like radar, but with more precision. ADS-B provides air traffic controllers and pilots with more
     accurate information to help keep aircraft safely separated in the sky and on runways.
19
     Data Communications will provide comprehensive data connectivity, including ground automation message generation
     and receipt, message routing and transmission, and aircraft avionics requirements.
20
     RNAV is a method of navigation in which aircraft use avionics, such as Global Positioning Systems, to fly any desired
     flight path without the limitations imposed by ground-based navigation systems. RNP is a form of RNAV that adds on-
     board monitoring and alerting capabilities for pilots, thus allowing aircraft to fly more precise flight paths.



2011 Top Management Challenges, Department of Transportation                                                              30
CHAPTER 7

Advancing the Next Generation Air Transportation System
While Ensuring the Safe and Efficient Operation of the
National Airspace System




Since we reported last year, FAA has stated that it will adjust its goals to focus on
implementing beneficial procedures rather than producing a targeted number of
procedures. In response to the recommendations of a joint government-industry task
force, FAA is also creating joint agency-industry teams tasked with deploying enhanced
procedures at delay-plagued airports in metropolitan areas, but this effort is in the early
stages. FAA’s key challenges to realizing the benefits of new procedures include integrating
new routes with airspace redesign efforts, streamlining its procedure development process,
modifying the equipment that controllers rely on to manage traffic, and properly training air
traffic controllers and pilots on procedures before implementing them.

Ensuring a Sufficient Number of Certified Professional Controllers at
Critical Facilities FAA estimates that it will need to hire and train nearly 11,000 new air
traffic controllers by fiscal year 2019 to replace controllers hired after the 1981 strike who
are now eligible to retire. Because of the surge in attrition, FAA must assign newly hired
controllers to complex air traffic control facilities, such as the Southern California Terminal
Radar Approach Control, the Atlanta Terminal Radar Approach Control, the Chicago O’Hare
Airport Traffic Control Tower, and facilities controlling the New York area airspace. In fiscal
year 2009, 61 percent of all newly hired controllers were placed at Level 10 through
12 facilities, which are the busiest and most complex in the Nation and critical to NAS
operations. In addition, 26 percent of FAA’s controller workforce is currently in training—
compared to 15 percent in 2004—creating the potential for fewer certified controllers in
the workforce to control air traffic while providing on-the-job training for new controllers.
While FAA has ongoing actions or plans to improve controller training and placement, the
Agency will need to minimize the risks that less experienced controllers impose on the most
critical facilities in the NAS. Key challenges will be ensuring adequate staffing, training
resources, and other support to maintain continuity of facility operations.




2011 Top Management Challenges, Department of Transportation                              31
CHAPTER 7

Advancing the Next Generation Air Transportation System
While Ensuring the Safe and Efficient Operation of the
National Airspace System




Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•   Timely Actions Needed To Advance the Next Generation Air Transportation System,
    June 16, 2010
•   Challenges in Meeting FAA’s Long-Term Goals for the Next Generation Air
    Transportation System, April 21, 2010
•   Actions Needed To Meet Expectations for the Next Generation Air Transportation
    System in the Midterm, October 28, 2009
•   Challenges in Implementing Performance-Based Navigation in the U.S. Air
    Transportation System, July 29, 2009
•   Training Failures Among Newly Hired Air Traffic Controllers, June 8, 2009
•   Progress and Remaining Challenges in Reducing Flight Delays and Improving Airline
    Customer Service, May 20, 2009
•   Aviation Industry Performance: A Review of the Aviation Industry in 2008, May 6, 2009
•   Controller Staffing at Key California Air Traffic Control Facilities, April 23, 2009
•   Federal Aviation Administration: Actions Needed To Achieve Mid-Term NextGen Goals,
    March 18, 2009
•   Key Issues for Reauthorizing the Federal Aviation Administration, February 11, 2009
•   FAA Faces Significant Risks in Implementing the Automatic Dependent Surveillance-
    Broadcast Program and Realizing Benefits, October 12, 2010




For more information on the issues identified in this chapter, please contact
Jeffrey B. Guzzetti, Assistant Inspector General for Aviation and Special
Program Audits, at (202)-366-0500.


2011 Top Management Challenges, Department of Transportation                          32
CHAPTER 8


Implementing Processes To Improve the
Department’s Acquisitions and Contract
Management




Used with permission from MIcrosoft

In fiscal year 2010, the Department obligated approximately $5.8 billion 21 on contracts for
goods and services, including information technology services, training, road maintenance,
and professional services to plan and implement key NextGen systems. Additionally, more
than $60 billion was budgeted for grants to states, transit agencies, and other partners to
help meet departmental strategic goals. To ensure it maximizes these dollars, the
Department needs to strengthen its acquisition and contract management practices. While
it has made some progress in this area, such as completing oversight reviews of the Federal
Aviation Administration’s (FAA) compliance with its acquisition policy guidance,22 our audits
continue to find weaknesses in how the Department plans, administers, and oversees its
contracts.




21
     Based on data from the Federal Procurement Data System-Next Generation provided by DOT.
22
     Completed regularly by FAA’s National Acquisition Evaluation Program Team.



2011 Top Management Challenges, Department of Transportation                                   33
CHAPTER 8

Implementing Processes To Improve the Department’s
Acquisitions and Contract Management




Key Challenges
•      Strengthening processes to govern the appropriate use of non-competitive or risky
       contracts and maximize use of competition
•      Strengthening the acquisition function and workforce to provide leadership for the
       Department’s acquisitions
•      Maintaining programs to help ensure high ethical standards among the Department’s
       contractors and employees

Strengthening Processes To Govern the Appropriate Use of Non-
Competitive or Risky Contracts and Maximize Use of Competition Recent
Office of Management and Budget (OMB) contracting initiatives underscore agency use of
competition and fixed-price contracts and require agencies to perform effective price
analysis to mitigate risks for noncompetitive contract awards. 23 However, the Department
annually awards over $1.8 billion using sole-source, cost-reimbursable, time-and-materials,
and labor hours contracts, which represent the greatest risk to the Government because
they are inefficient and subject to misuse. The Department was required to reduce the
amount obligated for new awards of these contracts by more than 10 percent in fiscal year
2010.24 However, our recent work on contracting at FAA and the Federal Motor Carrier
Safety Administration (FMCSA) and award fee contracts illustrates that the Department
needs to further improve its controls over high-risk contracts.

In fiscal year 2009, FAA obligated $541 million on more than 16,500 noncompetitive
contract actions. 25 Our ongoing review of FAA’s processes for awarding these sole-source
contracts revealed that acquisition planning was inadequate and responsible officials were
not sufficiently trained to perform price analyses. As a result, program and contracting
officials took shortcuts when completing price analyses to meet compressed timeframes.
Improved planning, training, and documentation are essential to ensure that prices are fair
and reasonable for these contracts.
23
     OMB Memorandum, Increasing Competition and Structuring Contracts for Best Results, October 27, 2009.
24
     DOT did not provide us with the analysis to show if it met the 10-percent reduction required by OMB for these contracts
     in fiscal year 2010.
25
     These include actions for awards of new contracts, modifications, task orders, and delivery orders. Not all of these
     contract actions required competitive awards, but when the action exceeds $10,000 FAA requires price analysis to
     ensure the Government receives the best value for dollars spent.



2011 Top Management Challenges, Department of Transportation                                                          34
CHAPTER 8

Implementing Processes To Improve the Department’s
Acquisitions and Contract Management




FMCSA spends about 40 percent of its procurement dollars on high-risk time-and-materials
contracts—compared to 5 percent Government-wide. In August 2010, we reported that
FMCSA’s contract pre-award processes leave it vulnerable to using ineffective business
arrangements and ultimately hinder its ability to maximize competition. 26 For example,
FMCSA does not prepare required acquisition plans, follow its recommended procurement
lead times for planning and awarding contracts, or perform adequate market research to
identify qualified vendors. While FMCSA concurred with our recommendations to follow
sound procurement practices and maximize competition, FMCSA must fully implement
planned actions to ensure it reduces its reliance on high-risk contracts and receives the best
value for its procurement dollars.

Weaknesses in the Department’s use of cost-plus-award-fee (CPAF) contracts further put its
contract dollars at risk. CPAF contracts can encourage excellence by providing financial
incentives based on performance, but they require effective monitoring to ensure contract
dollars are spent wisely and award fees are justified. In August 2010, however, we reported
that Operating Administrations did not use measurable evaluation criteria or payment
structures to motivate exceptional performance. Ultimately, Operating Administrations
consistently gave contractors high ratings and substantial award fees, despite lacking
adequate support for their actual performance, as measured by award-fee evaluation
criteria and directed by OMB. 27 These award fees totaled about 92 percent of the awards
for the rating periods we reviewed. Based on our audit sample, we estimated that more
than $140 million was paid in award fees without proper justification.28 To improve its use
of award fee contracts at operating administrations, the Department is developing a
guidebook incorporating best practices for planning, implementing, and administering CPAF
contracts and training contracting and program personnel. 29 Effective implementation of
Office of the Secretary (OST) and FAA measures will be critical to ensuring the Department
does not pay improper award fees to contractors.

26
     OIG Report Number ZA-2010-093, “Federal Motor Carrier Safety Administration Lacks Core Elements for a Successful
     Acquisition Function,” August 24, 2010.
27
     OIG Report Number ZA-2010-092, “Improvements in Cost-Plus-Award-Fee Processes Are Needed To Ensure Millions
     Paid in Fees Are Justified,” August 25, 2010.
28
     We audited the performance periods for award fee contracts as of December 31, 2007. Our estimate was based on
     extrapolating our contract sample to the universe of DOT’s 41 CPAF contracts.
29
     FAA issued separate award fee guidance in September 2007.




2011 Top Management Challenges, Department of Transportation                                                    35
CHAPTER 8

Implementing Processes To Improve the Department’s
Acquisitions and Contract Management




Strengthening the Acquisition Function and Workforce To Provide
Leadership for the Department’s Acquisitions To maintain an effective
acquisition function, OMB provided agencies with standard guidance that emphasizes
organizational alignment and leadership, policies and procedures, a workforce of the
appropriate size and needed skills, and information management and stewardship.30
However, key acquisition leadership positions within OST have been vacant or filled as
collateral duties, and a strategic vision is needed to guide acquisition operations
successfully throughout the Department. Also, OST’s Senior Procurement Executive (SPE)
does not report directly to the Chief Acquisition Officer (CAO), contrary to legislative
requirements31 and the intent of OMB guidance. Because the SPE does not have a direct
line of communication with the CAO and is not formally part of the Department’s top-level
management discussions and meetings, the SPE’s ability to elevate acquisition issues and
position the acquisition function to play a strategic role is diminished. For example, OST is
not sufficiently performing critical oversight of acquisitions at Operating Administrations.
OST also lacks a comprehensive set of updated policies to effectively manage its
acquisitions. The Department’s Transportation Acquisition Regulations and Transportation
Acquisition Manuals, maintained by OST, were last updated in 2005 and 2006, respectively.
Finally, OST lacks the basic internal controls needed to minimize the risk of unauthorized
users accessing and manipulating the Department’s procurement data. The lack of internal
controls compromises the data’s integrity, security, and usefulness in forming management
decisions and ultimately exposes the Department to fraud, waste, and abuse.

OST has begun steps to strengthen its acquisition function. However, until OST fully
commits to needed reform, it will be limited in its ability to provide clear direction and
vision to acquisitions across the Department. Strong acquisition direction is essential to
ensure the billions of dollars the Department spends on contracting each year are used in
the most efficient and effective manner and help accomplish the Department’s mission.

In addition to lacking an effective acquisition function, the Department is challenged to
maintain an acquisition workforce that can effectively oversee its expanding and complex
contracts for goods and services. Retention and recruitment concerns, as well as the need
to ensure a competent workforce, pose risks to the Department’s ability to meet its

30
     OMB Memorandum, Conducting Acquisition Assessments under OMB Circular A-123, May 21, 2008.
31
     Service Acquisition Reform Act of 2003 (Pub. L. No. 108-136 § 1421(c).



2011 Top Management Challenges, Department of Transportation                                      36
CHAPTER 8

Implementing Processes To Improve the Department’s
Acquisitions and Contract Management




acquisition workload demands.32 Between fiscal years 2008 and 2018, the percentage of
employees in the Department’s contracting series eligible to retire will more than triple to
63 percent—a rate about 10 percent higher than the average for civilian agencies.
According to FAA, its acquisition workforce is currently 6 percent understaffed, and this
shortage could grow to 26 percent by 2014. Despite these concerns, the Department has
yet to develop adequate plans to address this challenge. For example, the Department’s
2009 Strategic Acquisition Workforce Succession Plan is based on survey responses from
less than half of its workforce. In addition, Operating Administrations have not made
sufficient progress in implementing the specific strategies and goals in the Department’s
first Acquisition Workforce Strategic Human Capital Plan, issued in April 2010, for increasing
the capacity and capability of the acquisition workforce through fiscal year 2014. 33 This
year, FAA—whose procurement function is autonomous from the Department’s—updated
its 2009 Acquisition Workforce Plan to project workforce needs through 2014 and broaden
the definition of acquisition workforce.

Maintaining Programs To Help Ensure High Ethical Standards Among
the Department’s Contractors and Employees Our audits and investigations
have identified the need for more vigilant oversight to detect and prevent procurement
fraud, waste, and abuse within the Department and among its fund recipients. The
Department’s oversight of over $40 billion in Recovery Act funds heightens the importance
of safeguarding against awarding funds to those with a record of wrongdoing and abuse.

Contract and grant fraud cases currently comprise about 42 percent of active Office of
Inspector General investigations. Between June 2009 and September 17, 2010, contract
grant fraud cases resulted in 27 indictments, 34 convictions, and $72 million in recoveries.
For example, an airport owner and recipient of FAA Airport Improvement Program grants
was sentenced to 2 years probation for diverting approximately $375,000 in grant funds—
provided by FAA to pay contractors who completed airport improvements—for his personal
use. Similarly, a Chicago engineering firm owner was sentenced to 41 months in prison and
ordered to pay $10 million in restitution for overstating overhead expenses on various
engineering and architectural projects. The overpayments were due to invalid charges on

32
     OIG Report Number PT-2010-008, “DOT's Fiscal Year 2010 Top Management Challenges,” November 16, 2009.
33
     DOT’s plan was in response to an October 27, 2009, Office of Federal Procurement Policy requirement that civilian
     agencies develop an annual acquisition human capital plan.



2011 Top Management Challenges, Department of Transportation                                                     37
CHAPTER 8

Implementing Processes To Improve the Department’s
Acquisitions and Contract Management




projects funded by the Federal Transit Administration, the Federal Highway Administration,
and FAA.

In January 2010, we reported that the Department’s ability to safeguard against awarding
contracts and grants to improper parties was limited by delays in its suspension and
debarment (S&D) decisions and reporting, as well as deficiencies in its policies, procedures,
and internal controls. 34 In response to our recommendations, OST and FAA revised their
S&D policies to require timely action on S&D decisions and accurate and timely reports on
these cases. However, neither OST nor FAA has fully implemented the reporting system
and corresponding internal controls used to collect and manage S&D information across the
Department. Until the Department fully implements these improvements to its S&D
Program, it will have incomplete information on its S&D caseloads and risk awarding
contracts and grants to parties that have been suspended or debarred.




34
     OIG Report Number ZA-2010-034, “DOT's Suspension and Debarment Program Does Not Safeguard Against Awards to
     Improper Parties,” January 7, 2010.



2011 Top Management Challenges, Department of Transportation                                               38
CHAPTER 8

Implementing Processes To Improve the Department’s
Acquisitions and Contract Management




Related Products The following related reports, testimonies, and advisories can be
found on the OIG website at http://www.oig.dot.gov.

•   Improvements in Cost-Plus-Award-Fee Processes Are Needed To Ensure Millions Paid in
    Fees Are Justified, August 25, 2010
•   Federal Motor Carrier Safety Administration Lacks Core Elements for a Successful
    Acquisition Function, August 24, 2010.
•   Weaknesses in DOT’s Suspension and Debarment Program Limit Its Protection of
    Government Funds, March 18, 2010
•   DOT’s Suspension and Debarment Program Does Not Safeguard Against Awards to
    Improper Parties, January 7, 2010
•   ARRA Advisory–DOT’s Suspension and Debarment Program, May 18, 2009




For more information on the issues identified in this chapter, please contact
Tony Wysocki, Acting Assistant Inspector General for Acquisition and
Procurement Audits, at (202)-493-0223 or Timothy Barry, Principal Assistant
Inspector General for Investigations, at (202) 366-1967.




2011 Top Management Challenges, Department of Transportation                        39
CHAPTER 9



Improving the Department’s Cyber
Security




Source: freepixels.com

As part of its Accountable Government Initiative, the Administration seeks to enhance
Federal cyber security 35 while closing information technology (IT) gaps between the
Government and private sector. With new cyber threats constantly arising, automated
tools are essential to continuously monitor security-related information. With more than
400 systems—nearly two-thirds of which belong to the Federal Aviation Administration
(FAA)—and an approximately $3 billion annual technology investment, the Department is
working to incorporate new technologies and meet the Administration’s cyber security
goals.

Key Challenges
•      Establishing a robust information security program
•      Strengthening air traffic control system protections
•      Increasing protection of personally identifiable information (PII)


35
     Cyber security is the branch of security that pertains to computers and networks, including the Internet.



2011 Top Management Challenges, Department of Transportation                                                     40
CHAPTER 9

Improving the Department's Cyber Security




Establishing a Robust Information Security Program The Federal Information
Security Management Act (FISMA) of 2002 requires agencies to establish an information
security program to protect agency information and systems. Last year, we reported that
the Department’s information security program was not as effective as it should be and did
not meet key FISMA and Office of Management and Budget (OMB) requirements.36 With
limited progress during fiscal year 2010, several challenges remain.

First, security deficiencies still exist in key control areas, including management of
information, system authorization, configuration management, and contingency planning.
For example, we determined that the Department’s Recovery Act websites made user
information and departmental systems vulnerable to attack. To build an information
security program that adequately protects against cyber threats, the Department needs to
address security deficiencies in a sustainable and flexible manner so it can quickly adapt to
and avert new threats.

Second, the Department’s Office of the Chief Information Officer (OCIO) could do more to
guide and oversee the Operating Administrations in building and sustaining strong
information security practices. In 2009, OCIO issued its Department-wide information
security policy—the first step in building an information security program. The next step
for OCIO is to enhance this policy and develop Department-wide procedural guidance. In
addition, OCIO needs to conduct quality assurance reviews of modal cyber security efforts
and assess the use of technology to facilitate timely management of the Department’s
cyber security. At present, the Department does not have central, automated systems to
enable the timely assessment of its information security program. Until the OCIO can better
guide and oversee Operating Administrations’ information security, the Department cannot
ensure that policy is properly implemented or deploy automated tools to quickly and
continuously monitor its cyber security posture.

Finally, the Department has yet to meet OMB’s requirement for issuing Personal Identity
Verification (PIV) cards to employees and contractors—a key Government-wide initiative to
secure Federal information and information systems. OCIO and the Assistant Secretary of

36
     OIG Report Number FI-2010-023, “Audit of DOT’s Information Security Program and Practices,” November 18, 2009.



2011 Top Management Challenges, Department of Transportation                                                      41
CHAPTER 9

Improving the Department's Cyber Security




Administration share the responsibility of managing PIV card issuance. More than a year
after OMB’s October 2008 deadline, less than 30 percent of the Department’s
approximately 112,000 employees and contractors had a PIV card. The Department has yet
to develop an actionable plan to complete issuance of PIV cards to its remaining employees
and contractors. In addition, the Department needs a better process for securing the
information systems used to store, process, and transmit personally identifiable
information. Until it takes action to address these weaknesses, the Department not only
risks issuing PIV cards to non-DOT employees and contractors, it cannot secure personal
information such as Social Security numbers (SSN).

Strengthening Air Traffic Control System Protections FAA’s planned Next
Generation Air Transportation System (NextGen) system relies on a number of new
technologies to achieve its goals. The Automatic Dependent Surveillance-Broadcast
(ADS-B), a key NextGen system, uses satellite-based surveillance to more precisely track the
location of aircraft.37 While ADS-B offers many benefits over traditional ground-based radar
systems, some aspects are vulnerable to certain types of cyber attack. Also, as part of the
transition to NextGen, FAA is increasingly relying on the use of Internet Protocol (IP)-based
commercial products and web applications rather than proprietary software. While this
strategy will enable FAA to efficiently facilitate air traffic control services, it poses a higher
security risk due to the vulnerabilities inherent in using commercial IP-based products. In
addition, FAA is outsourcing more of its operations to contractors. ADS-B is the first
operational Air Traffic Control (ATC) system to be owned and operated by a contractor.
Because FAA only owns the data, not the system, it could have little control over security
challenges encountered with ADS-B.

As FAA develops NextGen, it must continue to protect its current ATC systems, which are
located at hundreds of operational facilities, such as en route centers, Terminal Radar
Approach Control (TRACON) facilities, and airport control towers. Yet, FAA has not
established adequate Intrusion Detection System (IDS) capabilities to monitor and detect
potential cyber security incidents at key ATC facilities. Instead, FAA relies on the
Department’s Cyber Security Management Center to monitor cyber incidents only for
administrative systems, such as email at these facilities. To collect critical information for


37
     See chapter 7 for a discussion of NextGen.



2011 Top Management Challenges, Department of Transportation                                 42
CHAPTER 9

Improving the Department's Cyber Security




security analyses, FAA needs to install IDS sensors at key locations. 38 During the past year,
FAA has taken steps to identify key ATC facilities that need IDS monitoring and has begun
deploying IDS at certain TRACON facilities. However, without comprehensive NAS-wide IDS
capabilities, FAA cannot effectively monitor ATC systems for possible cyber attacks or take
timely action to stop them. FAA management is developing an implementation strategy to
address this issue but has not developed or identified a timetable for deploying IDS beyond
the specified TRACON facilities.

Increasing Protection of Personally Identifiable Information To minimize the
risks associated with the unauthorized disclosure of PII, OMB required agencies to eliminate
the unneeded use of SSNs by November 2009. In fiscal year 2010, the Department
stabilized its inventory of systems containing PII, provided advanced training sessions for
modal privacy personnel, and continued its analysis to reduce the use of SSNs in PII systems.
Despite this progress, PII remains vulnerable to misuse. The Department has preliminarily
identified 70 systems that need to be evaluated for SSN elimination but does not plan to
complete the elimination until 2013. To protect the public’s privacy and comply with OMB
requirements, the Department must assign a priority to meet the OMB mandate of
eliminating unneeded use of SSNs in a timelier manner.

Our review of the Airmen Medical Support Systems (MSS) found that airmen’s PII was not
properly secured to prevent unauthorized access due to serious security lapses in FAA’s
management of user access to the system.39 For example, medical examiners’ former staff
continued to have access to MSS. At the same time, FAA has not fully implemented security
controls required by OMB and the Department to protect PII. In addition, FAA has not
ensured secure configuration of MSS computers in accordance with the Department’s
baseline standards to reduce the risk of unauthorized access and corruption. We found
vulnerabilities on MSS computers, such as the configuration allowing intruders to install
malicious codes on FAA user computers. These weaknesses make airmen’s PII vulnerable to
unauthorized access and use and potential falsification of medical certificates that could
lead to unfit airmen being medically certified to fly. During our review, FAA took immediate

38
     Sensors are a combination of hardware and software that serve as the “eyes and ears” of the IDS. Ideally, they are
     placed at key network locations (e.g., Internet access points) to detect threats such as viruses.
39
     OIG Report Number FI-2010-069, “Information Security and Privacy Controls over the Airmen Medical Support Systems,”
     June 18, 2010.




2011 Top Management Challenges, Department of Transportation                                                       43
CHAPTER 9

Improving the Department's Cyber Security




action to enhance security protection by working with doctors to remove thousands of
separated medical staff’s access to MSS and retracting millions of PII records from the
contractor’s site. However, additional improvements are needed to adequately secure PII
data from unauthorized use.


Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•    Review of FAA’s Progress in Enhancing Air Traffic Control Systems Security,
     November 2, 2009
•    Final Report on the Department of Transportation’s Information Security Program and
     Practices, November 18, 2009
•    Information Security and Privacy Controls Over the Airmen Medical Support Systems,
     June 18, 2010




    For more information on the issues identified in this chapter, please contact
    Earl Hedges, Acting Assistant Inspector General for Financial and Information
    Technology Audits, at (410)-962-3612.




2011 Top Management Challenges, Department of Transportation                          44
EXHIBIT


Comparison of Fiscal Year 2011 and
2010 Top Management Challenges
Fiscal Year 2011 Challenges                       Fiscal Year 2010 Challenges

• Ensuring Transparency and Accountability in     • Maximizing the Department’s Economic
  the Department’s Recovery Act Programs            Recovery Investments
• Maintaining Momentum in the                     • Enhancing Surface Safety Programs To
  Department’s Oversight of Highway, Motor          Reduce Injuries and Fatalities While Defining
  Vehicle, Hazardous Materials, and Transit         a New Federal Role in Transit Safety
  Safety
• Maintaining Momentum in Addressing              • Addressing Human Factors and Strengthening
  Human Factors and Improving Safety                the Regulatory Oversight Framework for
  Oversight of the Aviation Industry                Aviation Safety

• Improving the Department’s Oversight of         • Maximizing Federal Surface Infrastructure
  Highway, Transit, and Pipeline                    Investments by Helping States Better Allocate
  Infrastructure                                    Resources and Providing Effective Oversight

• Identifying Sufficient Funding Sources to       • Developing a Funding Framework for the
  Support Future Federal Investment in              Next Surface Transportation Reauthorization
  Surface Transportation Infrastructure
• Transforming the Federal Railroad               • Successfully Implementing the Newly Created
  Administration to Address Significantly           Multi-Billion Dollar High-Speed Intercity
  Expanded Oversight Responsibilities               Passenger Rail Program
• Advancing the Next Generation Air               • Moving Toward the Next Generation Air
  Transportation System While Ensuring the          Transportation System and Improving
  Safe and Efficient Operation of the National      Performance of the National Airspace System
  Airspace System
• Implementing Processes To Improve the           • Improving Contract Management and
  Department’s Acquisitions and Contract            Oversight
  Management                                      • Strengthening the Department’s Acquisition
                                                    Workforce

• Improving the Department’s Cyber Security       • Enhancing the Ability To Combat Cyber
                                                    Attacks and Improving the Governance of
                                                    Information Technology Resources




2011 Top Management Challenges, Department of Transportation                                  45
           APPENDIX. DEPARTMENT RESPONSE


                                                                          Memorandum
           U.S. Department of
           Transportation
           Office of the Secretary
           of Transportation




Subject:   ACTION: Response to Office of Inspector General (OIG)              Date:    November 3, 2010
           draft report, “Top Management Challenges for Fiscal Year
           2011”


  From:
           Christopher Bertram                                             Reply to
           Assistant Secretary for Budget and Programs, and                Attn. of:

           Chief Financial Officer

    To:    Calvin L. Scovel III
           Inspector General


           Throughout FY 2010, the Department of Transportation (DOT) has maintained its long-
           standing record of excellence in delivering a world-class transportation system for our
           Nation. Many of our recent accomplishments demonstrate the Department’s continued
           commitment to ensuring safe and reliable transportation for today, while at the same time
           planning for the transportation needs of tomorrow. The Department continues to promote
           intermodal solutions utilizing the best that each transportation mode has to offer for solving
           current transportation challenges, as well as an even more holistic or systems approach that
           builds transportation efficiency into communities from the start. This new systematic focus
           encourages livable communities by incorporating consideration of the important role that
           transportation plays into development decision-making to help make neighborhoods safe,
           accessible and efficient.

           Transportation Safety is the Department’s First Priority

           The Department’s commitment to maintaining and further improving transportation safety in
           all modes is unequivocal. The results of our safety culture continue to be demonstrated in
           recent metrics. Working together with state and local authorities, we have achieved further
           reductions in the annual highway fatality rates. This includes reductions in motorcycle
           fatalities which had been steadily rising. We raised public awareness around the Nation
           about the dangers posed by distracted driving from the unsafe use of cell phones, texting, and
           the use of other electronic devices. The Secretary personally highlighted the risks associated
           with distracted driving at events throughout the country and hosted a Distracted Driving
           Summit here at the Department to focus on this important issue. The Secretary also moved

           2011 Top Management Challenges, Department of Transportation                                   46
forward with a bold initiative to extend the Department’s safety culture to the transit systems
millions of people depend on each day to travel to and from work. After a recent string of
safety failures across the Nation, the Secretary determined that it is time for the Federal
Transit Administration to take a stronger, more proactive role in transit safety, and has been
working with the Congress to bring an increased Federal focus on transit safety.

The Department’s combined efforts through each of its operating administrations continue to
advance transportation safety through improvements in systems, processes, and oversight.
Through the Pipeline and Hazardous Materials Administration, the Department has
significantly improved its oversight of hazardous materials transportation over the past year,
with the application of improved procedures, better interaction with organizations throughout
the Department, and increased management focus on the issues. The National Highway
Traffic Safety Administration demonstrated its commitment to ensuring vehicle safety
through its introduction of new and tougher vehicle safety rating systems, its enforcement of
vehicle recall requirements, and its use of new and creative ways to inform the public. Its
continued emphasis on proven public information campaigns, such as “Click it or Ticket,”
combined with targeted enforcement activities led to further improvement in the rate of seat
belt use across the country, which is saving lives today. The Federal Aviation
Administration (FAA) has demonstrated continued success in its use of safety data to better
focus safety inspections and affect appropriate actions by air carriers to continue achieving a
strong safety record, even through difficult economic times. As a result of these and other
actions throughout the Department, we continue to make significant strides in achieving our
safety goals.

DOT Recovery Act Implementation Generates Tens of Thousands of Jobs with More
than 15,000 Infrastructure Projects

FY 2010 marks the second year of the Department’s implementation of the American
Recovery and Reinvestment Act of 2009 (Recovery Act) and the Department’s programs
continue to generate worthwhile jobs with careful investments in useful transportation
infrastructure. The $48.1 billion appropriated to DOT has been used to support more than
15,000 infrastructure projects. This investment has improved the safety and efficiency of the
Nation’s system of highways, transit, ports, and airports. Just as important, these projects
generated tens of thousands of jobs in transportation and related sectors, during a difficult
economic environment.

In addition to enhanced funding for the Department’s traditional programs, the Recovery Act
included $1.5 billion for the Secretary’s Discretionary Grant program known as TIGER
Grants, and $8 billion to begin addressing the President’s vision for a world class high speed
intercity passenger rail system for America. The TIGER Grant program focused on projects
that apply intermodal solutions and innovative strategies to address demonstrated
transportation needs. Early in 2010, the Secretary selected 51 projects nationwide that
promote greater mobility, a cleaner environment and more livable communities. Through the
Federal Railroad Administration (FRA), the Department has devoted significant time and


2011 Top Management Challenges, Department of Transportation                               47
resources over the past year for successful implementation of the new High Speed rail
initiatives. These efforts require nothing less than building an entirely new program
including identifying programmatic requirements, identifying and obtaining necessary
resources, and creating oversight structures, while implementing the program with
unprecedented speed. Using a truly intermodal approach, FRA identified best practices from
operating administrations throughout the Department and is modeling the program based-on
best practices from the Department’s established grant programs.

Implementing the Recovery Act also generated unanticipated benefits, including new
business processes, increased focus on new measures of results, and ever growing
expectations for expeditious program implementation with unprecedented transparency to the
public. We identified new ways to collect, analyze, and convey data. As we implemented
the Recovery Act, our innovative staff created capabilities that bring nationwide
transportation data to a level of granularity that is meaningful and accessible to local
communities. For the first time, the public can log onto the internet and with a few clicks of
a mouse, gain a clear sense of what the Recovery Act meant to their community, their state
and the Nation. We developed new training methods that helped the transportation
community understand and comply with the Recovery Act’s requirements. We developed
new programs, like the TIGER program from the ground up, based on virtual teams and
existing resources that can be quickly assembled, utilized, and then deconstructed, to get
things done quickly and expertly, with a minimum cost to the taxpayer. We will continue to
assess and analyze the lessons from Recovery Act implementation to determine how they can
be applied to increase the efficiency and effectiveness of the Department’s future endeavors.

Preparing for the Next Generation of Air Travel

FAA continues its efforts to effect a major change in the management of the Nation’s
airspace with its NextGen initiative. NextGen is intended to replace aging radar-based air
traffic management systems with a new state-of-the-art satellite-based technology that holds
the potential to improve system performance, address airspace congestion, and provide the
airline community with significant operational benefits. Implementing this “system of
systems” into an integrated air traffic management tool is a major undertaking and one of the
Department’s highest priorities. Ensuring that each NextGen segment moves forward in a
synchronized way and effectively addresses the interdependencies among the various
systems presents an enormous technical challenge to the Department. We must also keep in
mind, that as the development and implementation of NextGen proceeds, FAA must also
ensure that today’s airspace continues to meet operational goals, such as reducing tarmac
delays, increasing on-time arrivals, and maintaining strong safety performance throughout
the National Airspace System.

Planning for the Surface Transportation Needs of the Future

The Department’s surface transportation programs are due to be authorized by Congress.
Throughout FY 2010, we have been working to delineate the Administration’s priorities for


2011 Top Management Challenges, Department of Transportation                              48
surface authorization and reflect the President’s vision for meaningful investment in
transportation infrastructure to facilitate economic growth, enhance safety, and improve the
environment. In identifying these priorities we continue to build on a focus of intermodal
solutions and enhancing the systems approach for improving livability with effective
transportation solutions. We look forward to working with the Congress to explore the
potential for new and better ways to fund transportation infrastructure investment, including
innovative financing tools that will further leverage limited Federal resources and maximize
our return on investments for the public.

Overall, the nature of the Department’s mission with its focus on transportation safety and
guiding wise investments in transportation infrastructure leads to a continuous cycle of
management challenges. Even as progress is achieved, new challenges arise. For example
advances in automotive electronics led to new advances in safety such as advanced vehicle
stability control that is saving lives today. At the same time, we recognize that advanced
electronics also lead to new challenges that resulted in the Secretary’s initiative to reduce
distracted driving. Nonetheless, the Department has established a clear record of
accomplishment throughout the operating administrations and in the Office of the Secretary
over the past year. As we begin FY 2011, we will once again bring to bear the talent, energy
and commitment of the Department to help Transportation meet its goals. Thank you for
sharing the Office of Inspector General’s perspectives on the challenges facing the
Department. This information will be helpful in planning for FY 2011 and beyond.




2011 Top Management Challenges, Department of Transportation                              49
